)

No.

Supreme Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATUS

DEC 2 8 2020
OFFICE OF THE CLERK

CHARLES LEE MOSIER, SR. — PETITIONER
(Your Name)

vs.

THE STATE OF TEXAS

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF CRIMINAL APPEALS OF TEXAS_______________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

CHARLES LEE MOSIER. SR.
(Your Name)

HUGHES UNIT (TDCJ NO. 2062833)
RT. 2 ,BOX 4400
(Address)

GATESVILLE, TX 76597
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED

GROUND ONE:

DOES A STATE'S INITIAL-REVIEW POST-CONVICTION
COLLATERAL PROCEEDINGS MEET CONSTITUTIONAL
STANDARDS WHEN THOSE PROCEEDINGS FAIL TO PROVIDE
A PRISONER THE OPPORTUNITY TO GATHER, PRESENT,
AND CONSIDERATION OF EVIDENCE IN SUPPORT OF AN
INEFFECTIVE ASSISTANCE OF COUNSEL AT TRIAL
CLAIM, FOR WHICH THE INTITIAL-REVIEW COLLATERAL
PROCEEDINGS IS THE FIRST MEANINGFUL OPPORTUNITY
TO RAISE AN INEFFECTIVE ASSISTANCE OF COUNSEL
AT TRIAL CLAIM?

GROUND TWO:

WAS PETITIONER'S TRIAL COUNSEL AND CO-COUNSEL
INEFFECTIVE DURING EITHER THE GUILT/INNOCENCE
PHASE m SENTENCING PHASE OF THE TRIAL, PURSUANT
TO STRICKLAND V. WASHINGTON, 466 U.S. 688 (1984);
AND“, IF NOT, DOES STRICKLAND NEED TO BE MODIFIED
TO ADDRESS SITUATIONS WHEN TRIAL COUNSEL IS
UNAVAILABLE AS A WITNESS?

J

LIST OF PARTIES

case on the cover page.

[

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Petitioner, Charles Lee Mosier's, habeas petition filed
pursuant to 28 U.S.C. § 2254, is pending in the U.S. District
Court for the Northern District of Texas, Fort'.WorthiDivision
and has been STAYED pending the resolution of this Petition for
Writ of Certiorari.

See, Mosier v. Lunpkin , ANo. 4:19-CV-355-0

(N.D. Tex - Nov. 3, 2020)

Dkt. No. 10.

*** While it involves an entirely different Petitioner,
the same exact issue and substantially similar briefing, will
be

raised in this Court on a Petition for Writ of Certiorari to

be filed "in the case of Ex parte Paul Salazar, No. WR-90,899^02
(Tex.Crim.App. - October 21, 2020)(available at http://www.txcourts.
gov/cca/); which the § 2254 habeas petition has also been STAYED.
See, Salazar v

Lumpkiri., No. 5:19-cv-01489 (W.D7 Tex (San Antonio

Div) Nov. 5, 2020), Dkt. No. 8.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-16

REASONS FOR GRANTING THE WRIT

11740

GROUND ONE:

17-32

DUE PROCESS

Mosier's Requests For Relevant Evidence

18-19

Gathering and Submitting Evidence Necessary
Part of Procedure

20-21

More Limited Question That Prior Certorari's Granted 21-23
No Other Federal Remedy

23-24

Texas' Post-Conviction Relief Procedures

24-26

Mosier's Requests Were Ignored

26-28

Due Process Applies

28-30

Conclusion - No Perfect Vehicle

31-32
33-40 •- ;

GROUND: INEFFECTIVE ASSISTANCE OF COUNSEL •
'.33-35

Intertwined With Ground One
Strickland Prejudice

35-37

Deficient Performance

37-40
• .

Important Questions Included

40' *

■

• ^

40

CONCLUSIONS
PROOF OF SERVICE
DECLARATION OF MAILING TO COURT
t ^ '•

f

■“

TABLE OF AUTHORITIES CITED
CASES

PAGE

Ex parte Adams, 768 S.W.2d 281 (Tex.Crim.App.1989)

24

Atkins v. Clarke, 642 F.3d 47 (1st Cir. 2011)

23-25

Balligger v. Prelesnike

709 F.3d 558 (6th Cir. 2015)

23

Black v. Workman, 682 F.3d 880 (10th Cir. 2012)

23

Boubediene v. Bush, 553 U.S. 723 (2008)

20

Bullcoming v. New Mexico, 131 S.Ct. 2705 (2014)

38

Burt v. Titlow, 134 S.Ct. 10 (2013)

19,33

U.S. v. Cameron, 699 F.3d 621 (1st Cire 2012)

38

769 F.3d 726 (7th Cir. 2015)

39

Carter v. Douma

Case v. Nebraska, 381 U.S. 336 (1965)

20,21

In Re Cathey, No. 16-20312 (5th Cir. May 11, 2012)

24

Coleman v. Thompson, 501 U.S. 722 (1991)

23,29

Cullen v. Pinholster

131 S.Ct. 1388 (2011)

18,21,22

Ex parte Dawson, 509 S.W.3d 294 (Tex.Crim.App.2016)

25,34

District Attorney's Office for the Thrid Judicial
District v. Osborne, 557 U.S. 52 (2009)

22,29

Donnelly v. DeChistoforo, 416 U.S. 637 (1974)

37

Ex parte Empey, 757 S.W.2d 771 (Tex.Crim.App._______

31

Evitts v. Lucey, 469 U.S. 387 (1985)

22,28

112 S.Ct. 1377 (1992)

37

Ex parte Flores, 387 S.W.3d 626 (Tex.Crim.App.2012)

25

U.S. v. Felix

Ford v. Wainwright, 477 U.S. 399 (1986)

20,23,29

Fretwell v. Norris, 133 F.3d 621 (8th Cir. 1988)

33

Ex parte Garcia, 486 S.W.3d 565 (Tex.Crim.App.2016)

25

Gibson v. Jackson, 578 F.2d 1045 (5th Cir. 1978)

23

Ex parte Harleston, 431 S.W.3d 67 (Tex.Crim.App.2014)

25

Halbert v. Michigan, 545 U.S. 605 (2005)

23

Harrington v. Richter

22

526 U.S.86 (2011)

Harris v. Nelson^ 394 U.S. 343 (1969)

29

Hicks v. Oklahoma, 447 U.S. 343 (1979)

28

Johnson v. Mississippi), 4867U.S. 578 (1988)

23

Klueppel v. State

37

500 S.W.2d 572 (Tex.Crim.App.1974)

Kyles v. Whitley, 498 U.S. 931 (1990)
Martinez v. Ryan, 132 S.Ct. 1309 (2012)

21
17§21,30

Matthews v. Eldridge, 424 U.S. 319 (1976)

29

McCormick v. Parker, 821 F.3d 1240 (10th Cir. 2016)

35

Medina v. California, 505 U.S. 437 (1992)

29

Ex parte Medina, 361 S.W.3d 497 (Tex.Crim.App.2018)

37

Ex parte Miller, 548 S.W.3d 497 (Tex.Crim.Agp.2016)

23

Montgomery v. Louisiana, 136 S.Ct. 718 (2016)

23

Moore v. T¥*as, 137 S.Ct. 1039 (2017)

24

Morris v. Cain, 186 F.3d 129 (5th Cir. 1999)

23

Panetti v. Quarterman, 127 S.Ct. 2841 (2007)

20,29

Paredes v. State

38

462 S.W.3d 510 (Tex.Crim.App.2015)

Ex parte Patterson, 993 S.W.2d 114 (Tex.Crim.App.1999)

25

Ex parte Pointer, 492 S.W.3d 318 (Tex.Crim.App.2018)

25

Ex parte Reedy, 282 S.W.3d 492 $Tex.Crim.App.2009)

34

Ex parte Rogers, 369 S.W.3d 858 (Tex.Crim.App.2012)

36

Rogers v. Lynaugh, 848 F.2d 606 (5th Cir. 1988)

38

Russeau v. State, 171 S.W.3d 871 (Tex.Crim.App.2005)

38

Strickland v. Washington, 466 U.S. 668 (1984)

33

Sully v. Ayers

23

725 F.3d 1057 (9th Cir. 2013)

Swartout v. Cooke, 562 U.S. 216 (2011)

22

Ex parte Torres, 943 S.W.2d 469 (Tex.Crim.App.1997)

17,18

Trevino v. Thaler, 133 S.Ct. 1911 (20d)3)

17,18,22,30

Tucker v. State, 456 S.W.3d 194 (Tex.App. - San Antonio)

3/

37

Valle v. Florida, 654 F.3d 1266 (11th Cir. 2011)

23

Welch v. Beto, 355 F.2d 1016 (5th Cir. 1966)

28

Williams v. Illinois, 123 S.Ct. 2221 (2012)

38,39

Woods v. Nierstheimer, 328 U.S. 211 (2946)

21

Word v. Lord, 648 F.3d 129 (2nd Cir. 2011)

23

Yattis v. Aiken, 484 U,S. 211 (1988)

23

statutes/rules
Texas Code of Criminal Procedure, Article 11.07

24-26

Texas Rules 0f Appellate Procedure, Rule 73

26

ECOMMENTARY
rAD
Randy Hertz and James S. Liebman, Federal Habeas Corpus Practice
and Procedure, 2019 Edition § 7.1[bQ
PASSIM

I

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ id For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix------ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[CfTs unpublished.
The opinion of the _432nd District Court of Tarrant Coutatpt
to the petition and is
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[^'Ts'unpublished.
1.

to

*J

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was -------- ----------------------- —
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: ------------------ order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No. ---- A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[y( For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix----------[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ _ and a copy of the order denying rehearing
appears at Appendix---------[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including----------------------(date) on _---------------------- (date) in
Application No. '—A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

A

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. CONSTITUTION, Articleelll

Section 2 - "

• ?

.-The Trial

of all Crimes, except in Cases of Impeachment, shalli.be by Jury;
and such Trial shall be held in the State where the said Crimes
shall have been committed ..."

USS. CNSTITUTION, 6th Amendment - "In all criminal;prosecutions,
the accused shall enjoy ...the right to a speedy and public trial,
by an impartial jury of the State and district wherein the crime
shall have been committed and ....[] to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor,-- and to have the Assistance of Counsel
for his defense.""

U.S. CONSTITUTION, 14th Amendment
deprive any

"...,nor shall any State

person of life, liberty, or property, without due

process of law..."

Texas Code of Criminal Procedure, Articld^ll.07

Texas Rules of Appellate Procedure, Rule 73 -

3

APPENDIX "F"

APPENDIX

"p"

STATEMENT OF THE CASE
1. .

The Petitioner, Charles Lee Mosier, Sr., was charged in

the 432nd District Court of Tarrant County, Texas with continuous
sexual, abuse of a child,
abused Amy and Alex
2.

The allegations were that Mosier sexually
1
relatives who lived with him.

The childeennreported the alleged abuse after moving out

of Moiser's hous£ to live with their mother.. The defense theory
at trial was that "the children accused [Mosier] of abuse so they
could move in with their mom, who was not as strict" as Mosier and
his wife., The problem was that the "Allegations were not made until
the alleged goal and motivation to lie -- the desire to move to
a more lenient home environment -- had already been achieved."
3.

The trial record did not reveal,what reason the children

provided to the adults to explain their motivation to move.. However,
at trial Amy claimed that the reason she wanted to move was the
alleged molestation and Alex',;claimed that

he was just tired of living

there.. There was also no testimony at trial concerning the motivation
to actuallyyreport the alleged abuse a month or so after the children
moved out.. But, Alexxdid claim at trial that he was present when
Amy made the outcry, was angry with Amy for reporting the abuse,
and stated more than onace that he never wanted anyone to know about
what had happen.,
4.

However,jMosier's trial counsel faifdddto disclose to

the Jury, through cross-examination or otherwise, that prior to
trial Amy revealed that it was Alex who "told her 'if you don't

p

tell now nothing will hapen about it. f tf State Habeas Writ Application
A
EXHIBIT "S" - "State's Disclosure #3 (hereinafter "Disclosure #3").;
1.

Unless otherwise noted,.the facts (quotes) come from the State
appellate court s Opinom oon direct review., APPENDIX C" COA Opinion.

H

Nor did trial counsel disclose to the Jury that Amy "had just had
an argument with their mother [] and was mad« at her when [Amy]
made the outcry..."

State Habeas Writ Application, EXHIBIT "R" -

"State's Disclosure #2" (hereinafter "Disclosure #2").

Which would

have all supported a different defense theory that the children
made the false allegations in an attempt to not have to move back
into Moaiser’s stricter home enviorment after the children continued
to get in trouble at their mom's and when their mom could still
not keep a stable home environment.
5.

5 RR 67, 76, 81; 6 RR 64.

Moreover, trial counsel failed to disclose to the Jury

that prior to trial Alex claimed that the reason he wanted to move
out of Mosier's house was because of the alleged abuse and, in contrast,
it was Amy who was just tried of living there.
6.

Disclosures #2 & #3.

After the outcry, CPS had the children report their allegations

to a forensic interview expert at Alliance for Children.
forensic interviews were recorded.

5 RR 145-146, 149.

Those
It would

appear that the very reason the State prosecutors felt compelled
to disclose the statements the children made to prosecutors in preparation
for trial .was because those statements were inconsisent with the
recorded forensic interviews and Brady required the disclosure.
Nevertheless

Moiser could not plead in his state habeas writ application

the specific prior inconsistent statements that the children made
during the forensic interviews compared to at trial (and to the
prosectuors) because the state habeas trial court ignored Mosier's
requests for access to the recordings and to make the recordings
a part of the writ record.

See, State Habeas Writ Application

GROUND NINE; Motion to Compell the District Attorney to Produce
(anf\File Electronicly/Recorded Statements of Both Complainant's
Made to Expert Forensic Child Interviewer; Motion for Live Evidentiary

5

Hearing, Petition for Writ of Mandamus (No. WR-90,089-02 & -03).
7.

Amy testified at trial that the abuse began when she was

10 years old; but, on that first occasion she resisted,

Then, a

week or two later, accroding to her testimony, Mosier forced her
while idiu WJ3 luyi'»g

to perform oral sex on him in the bathroom

-d-ovwa (with no mention about him grabbing her hair).
Then, Amy testified

5 RR 110.

approximately a week after the bathroom incident,

-- and when she was 12 years old

Mosier went into her bedroom

and forced her to have vaginal sex with him.

5 RR 117.

Amy also

testified that she once witnessed an indicent when Mosier allegedly
sexaully abused Alex.
8.

Multiple times during trial, Mosier's counsel asked Amy

whether she had ever told different stroies to different people,
including whether she had ever claimed the abuse started before
she was 10 years old -- which she denied.

5 RR 134-135

However,

trial counsel never disclosed to the Jury, through cross-examination
or otherwise

that Amy had indeed at different times claimed,:

the attempted abuse happen when she was 2 years old,
k/k&A
the forced vaginal sex happen first in time and^she
was 10 years old, and
:Q
w

the oral sex in the bathroom happen later, when she was
11 years old^and Mosier had grabbed her hair, while she
was knealing, during that incident.

Disclosure #3.

Nevertheless, trial counsel argued to the Jury that

during his questioning he had exposed the prior inconsistent statements.
9.

Alex testified at trial that when he was between 12 and

14 and had gotten in trouble at school, Mosier told him to perform
oral sex on Mosier in the bedroom.

Mosier's wife had went outside.

with Amy when that alleged abuse happen.
testimony, some months later

According to the trial

when Alex was 14 or 15 years old.

6

Mosier allegedly made Alex perform oral sex on him in the bathroom
while Alex was on the ground,

5 RR 51.

Alex also testified that

when he was 16 years old, after he and Mosier had watched some
pornography, Mosier made Alex perform anal sex on Moiser and then
Moiser performed anal sex on Alex (with no:mention of any type of
mutal oral sex during this alleged incident)f,Alex. u>cis i'/>
+al|<ra^ 4o

10t

before it

Again, Mosier's trial counsel asked Alex if he had ever

told different stories to different people;-- which Alex denied.
5 RR 77.

However

trial counsel never disclosed to the Jury that

Alex had indeed at different times claimed:
the abuse first started when he was 10 to 12 years
old,
Mosier's wife was in the kitchen during the first
alleged incident,
Alex was "kneeling" on the floor during the first
bathroom allegation,
prior to the porn allegation Alex was asleep in
his room, and^
He described the sequennce of events during the porn
allegation as follows:
''Charles Sr. made him watch porn in the roaster
bedroom and then made him suck his penis. Than,
Charts Sr, sucked [Alex's] penis. then, Charts
Sr. produced a bottle of oil, which he used to lubricate
his penis and [Alex's] anus. The defendant than
had [Alex] lay on his side on the bed and lied behind
him. Charts Sr. then had anal intercourse with
[Alex]. ... Char4€s Sr. then had [Alex] switch places
with him and m®ade [Alex] have anal intercourse with
him using the oil again."
Disclosure #2.
11,

On direct review the state appellate court described both

children as reluctant witnesses.

Particularly, Amy's testimony

was choppy, brusque, and quite often altogether unresponsive,
she frequently responded to questions posed with answers

9-

And

"not for

sure", or "kind of."

Moreover, the parties agreed at trial that

the credibility of the children was the main issue.

6 RR 90-91,

93-96, 99, 105-106, 108-118.
12.

A non-examining SANE nurse testified about her review

of a SANE exam report prepared by a different SANE nurse, who was
no longer employeed at the hospital were the SANE exam took place.
The SANE exam report (with photgraphs) was itself admitted into
evidence as a busisness record.

It was established at trial that

the purpose of the SANE exam was to "get information that [the police]
need for any criminal type prosecution."

4 RR 25.

The non-examining

SANE nurse testified as to the "results" and "findings" of the SANE
exam report,

5 RR 179-180.

That included testimony that there

was a single tear in Amy's hymen.

Then, the honr.exararng SANE nurse

gave her expert opinion, based on the SANE exam report and the photo­
graphs, that "beyond all boubt" the tear in Amy's hymen was caused
by "blunt force penetrating trauma" -- somthing going inside her
hymen into the vagina, like a "penis."

5 RR 182.

The non-examing

SANE nurse did admit that she could not determine exactly when the
single tear to Amy's hymen happen (or who/what caused it).
13.

The Jury also heard; during the.4uilt/innocence phase of

the trials testimony that Mosier allegedly sexaully abused his sister,
Jackie, when they were kids.

Yet, the State appellate court, on

direetrreview, held that evidence was inadmissible at trial because
of the remoteness

the lack of intervening misconduct, Mosier's

age at the time the alleged offense against Jackie occurred, and
the significant differences between Mosier's alleged abuse of Jackie
and alleged abuse of Amy and Alex,

Specifically, the alleged conduct

against Jackie was "more heinous."

Butj according to the State

©

O

appellate :court. the trial error in admitting that evidence was
harmless during the guil-^/innocence phase because, even though the
|c

state prosecutor^spent much of their time during closing arguments
addressing Jackie's extraneous offense ,testimony, the prosecutors
tempered their remarks by reminding the Jury that Moiser was not
on trial forrabusing Jackie..
on the

The State appellate court also relied

inopposite defense theory of outcry in order to move out

of MOaiser's and the physical evidence from the SANE exam report
(and testimony).
14.

Prior to trial Amy also claimed that Moiser's son, Charles

(or "Chuck") Jr., had sexually abused her by "causing his naked
penis to contact the 'line' [or hymen] of her vagina" and multiple
instances of oral sex.

Disclosure #3.

to and was convicted of abusing Amy.

Indeed, Jr. pled guilty
State Habeas Writ Application,

EXHIBIT "P" & "Q" - Jr.'s plea papers/judgment of conviction.

And,

at trial Mosier's counsel argued to the Jury that,
"You know whatelse is possible? That
than one person named Chuck in this case.
he's 22 years of age, he lives ®n the same
the same time that the children, [Amy] and
there."
6 RR

there's more
We know that
house during
[ Alex] , ;were

The state prosecutor even objected that trial counsel was

'implying Chuck abused these children -- Chuck Jr."

6 RR 98.

Yet,

CL

trial counsel did not even attempt to presnt to the Jury any evidence,
through cross-examination or otherwise, that Jr. abused Amy.
15.

The Jury did get to hear evidence that Amy could not have

observed the instance of oral sex between Alex and Mosier that occurred
in the bathroom.

Additionally, the Jury heard evidence, and the

State prosecutor admitted, that Mosier had "a tatto of his own wife's
name right above [hisspenis] ... right there for people to look
at."

6 RR 111.

Yet, the children were unable to identify that

key tatto.
16.

During the punishment phase hearing, the State prosectuor

argued,cwithout objection,, to the Jury,:
"And whatever your sentence is, we're going to accept it.
[Alex] and [Amy] will accept it, [Jackie], will accept it.
We're asking you to punish him for the rape and sexual
assault of his own sisiter, [Jackie].
Now how do you put a number for their losses here?
How do you quantify what [Alex] and [amy] and What [Jackie],
what they had taken from them and can never get back.
... But you've got more than just one victim. You're
judging this man for two victims here in the State of
Texas and one vicitm in the State of Arkansas, [Jackie]."
8 RR 33-34.
17^

There were no limiting instructions in the Court's Charge

to the Jury related to the non^examing SANE expert's testimony (or
at punishment fcelated.:to the extraneous offense) because Mosier's
trial counsel never requested any.
187

The Jury found Moiser guilty of continous sexual abuse
<2,

of a child and sentneced him to 50 years confinement.
19.

Mosier appealed his conivction.

The 2nd District Court

of Appeals of Texas held that the trial court abusedaits discretion
in admitting the extraneous offense evidence related to Mosier's
sister, Jackie, during guilt/innocence phase of trial; but, that
the error was harmless.

See, Mosier v. State, No. 02-11-00159-CR,

2017 WL 2375768 (Tex. App. - Fort Worth June 1, 2017, pet. ref'd)
(mem. op., not designated for publication); See also, APPENDIX "
20.

"

Mosier filed a state post-conivction application for writ

of habeas corpus, pursuant to Article 11.07 of the Texas Code of
Criminal Procedure.

In that::initial-review collateral proceeding

Mosier assrted, in part, that his trial counsel arid co-counsel,
were ineffective when they:

\0

•

Failed to object on Due Process and Sixth Amendment grounds

to the State prosecutors arguing that the Jury was judging Mosier
for and should punish Mosier by putting a number to, the extraneous
<2.
off^ese allegation related to Mosier s sister.
Failed

to object on constitutional confrontation grounds

to the non-examining SANE nurse's testimony related to the results
and findings of the SANE exam report written by another SANE nurse.
•

Failed to object on constitutional confrontation grounds

to the admittance into evidence of the SANE exam report (land photographs) as a business record (and without chain of custody .evidence).
•

Failed to object on constitutional confrontation grounds

to the testimony of the non-examining SANE aurse of her expert opinion,
based on the inadmissible SANE exam report and photographs.
)

Failed to at least request a limiting instruction regarding

the non-examining SANE nurses testimony.
•

Failed to present evidence, by cross-examination or otherwise

that Mosier's son, Chuck Jr., had abused Amy#
•

Presented the wrong defensive theory to the Jury that

the children fabricated the allegations as a means of escaping Mosier's
strict rules, when it was undisputed that the first outcry did not
occur until the children had already moved out of Mosier's house;
when there was available evidence that the children fabricated the
allegations as,a means of preventing their return to Mosier's custody
when they kept getting in trouble at their mom's and their mom could
still not keep a stable home enviorment,
•

Failed to properly .expose all the prior inconsistent

statements of both the children about the allegations of abuse.

1 I

21.

The state habeas trial court, pursuant to Article 11.07

§ 3(c) of the Texas Code of Criminal Procedure

determined that

there were "controverted, previously unresolved facts material to
the legality of [Mosier's] confinement f j :; and, pursuant to Artilce
11.07 § 3(d), designated the above issues to be resolved by>a.Magistrate
Judge.
22.

Mosier's trial counsel, T. Richard Alley, died( prior to

MOsier filing his state habeas writ application.

Mosier's co-counsel,

Hon* James Wilson, filed an affidavit responding to Mosier's claims.
Importantly Wilson admitted that,:
Theoreason they did not object to the references to the
extraneous offense related to Mosier's sister during the State
prosecutor's closing arguments at the punishment phase was because
counsel beleived the arguments were proper summation of the evidence.
•

The reason they did not object to the admission of the

SANE exam testimony was because they did not believe it was a
violation of the Confrontation Clause.
•

The reason they did not attempt to admit any evidence

that Jr. abused Amy was because the State prosecutor's motion in
limine reagarding that information had been graced and counsel
bleived there was never a point in the trial where that evidence
became relevant or admissible.
THE CH00SEN DEFENSE STRATEGY WAS TO BRING OUT THE
INCONSISTENCES IN THE STATEMENTS OF THE CHILDREN.
23.

Moiser filed a REPLY to Wilson's affidaivt asserting that

it failed to respond to all the actual claims raised by Mosier and
requested an additional affidavit from Wilson,
trial court ignored that request.

1^

The state habeas

24.

Mosier filed with the state habeas court a motion asking

that court to cause the actual SANE exam report and photographs
to be

made a part of the writ record.

See, Motion for the Court

Reporter or District Attorney to Produce and File State's EXHIBIT
6" and

7" Missing From the District Clerk's File.

The state

habeas trial court ignored that request.
25.

Mosier filed with the state habeas trial court a motion

requesting access to the electronic recordings of the forensic interviews
of the children and that they be made a part of the^record.

See,

Motion to Compell the District Attorney to Produce and File Electronicaly
Recorded Statements of Both Complainant's Made to Expert Forensic
Child Interviewer.

Mosier even asserted in the body of the state

habeas writ application that he needed access to the recordings
in order to plead the specific facts concerning what prior inconsistent
statements exhistedv
NINE.

See, State Habeas .Writ Application, GROUND

The state habeas trial court ignored those requests.
26.

Mosier filed with the state habeas trial court a motion

requesting a live evidentiary hearing (or alternative relief such
as additional affidavits, etc.).
Hearing.

See, Motion for Live Evidentiary

Moiser agrued that Martinez/Trevino stressed the importance

of full and fair consideration, with evidence outside the trial
record, of ineffective assistance of counsel at trial claims raised
in initial-review collateral proceedings,

Then, because Due Process

applied when States choose to afford prisoners avenu^Sfor relief
from convictions, in order for Mosier to have an adequate opportunity
to be heard there was a need for additional gathering of evidence.
Moiser pointed out that the need to gather additional evidence was
heightened in his case because trial counsel had passed away and
the burden to overcome that counsel acted with reasonable professional

13

judgment (and according to sound trial strategy),

Moiser detailed

all the missing evidence and the imporatnce of that evidence to the
full and fair .consideration of his claim(s).

For example, Mosier

pointed out how co-counsel did not respond to the specific claim
of why he did not personally object to the State's closing arugments
at punishment related to the extraneous offense(s) and why counsel
did not object to, not just the testimony about the SANE exam report,
but also the admittance into evidence of the SANE exam report as
a business record and without chain of custody evidence,

Moiser

also reminded the court that the District Attorney or other officals,
had still yet to produce the electronic recording of the fornensic
interivews and the actual SANE exam report.

The state habeas trial

court ignored that request.
27.

Twice, once prior to a remand being ordered and once after 'V

the remand was ordered, Moiser filed a petition for writ of mandamus
in the Texas Court of Criminal Appeals ("TCCA") requesting that
the state habeas trial-court be instructed to rule on all of Mosier's
pending motions (production of SANE exam report, production of electronic
recordings of forensic interviews, and live evidentiary hearing).
Mdiser argued that.
"[i]t appears common practice in this State for convicting
courts to ignore the pleadings (and motions) of prisoners
in post-conviction habeas writ proceedings. Perhaps,
the convicting courts rule on them when the court® enter
their Findings of Fact and Conclusions of Lav;. But, by
that time it is to late to really help. Afterall, if
like Mosier, the applicant is asking for the court's help
in gathering evidence to support the claims made in his
writ application, it is to late by the time the court
makes Findings and Conclusions. Additionally, there is
no procedure in this Court for an applicant to complain
that the convicting court has not helped him gather necessary
supporting evidence. Indeed, in practice, this Court
rules on post-conviction habeas writ application?before
an appicant can even file objections.
Mosier is going everything he can to meet hiis burden
of proof and support his writ application with relevant
eviderice. However, being a prisoner, he needs the convicting
court's help in gathering that pelveant
evidence.

/V

Moiser also pointed once again to Martinez/Trevino .stressing the
importance of a fair opportunity for a prisoner to present claims
of ineffective assistance of counsel at trial in an initial-review
collateral proceeding. The TCCA refused to even consider Mosier's
requests.

See, Ex parte Mosier, No.) WR-90,089-02,(Tex.CrimvApp.
)(available at http://www.txcourts.gov/cca/),

Ex parte Mosier, No. WR-90,089-03 (Tex. Crim. App. Sq>vtmaf y

AA-iG \

)

(available at http://www.txcourts.gov/cca).
28.

On December 2p 2019^out of the blue and days before the

state habeas courts deadline to make Findings of Fact, the State
prosecutor filed PROPOSED Findings of Fact and Conclusions of Law.
On December 10, 2019, prior to Mosier having an opportunity to respond
to the State's PROPOSED Findings, the Magistrate Judge adopted the
State prosecutor's PROPSED Findings.

And, on December 11, 2019

the state habeas trial court adopted the Magistrate Judge's actions.
29.

Moiser timely filed OBJECTIONS to the state habeas trial

court's Findings of Fact and Conclusions of Law in the TCCA. Mdiser
in a detailed manner explained all the ways the Findings were incomplete
and erroneous.

Including Moiser's complainat that the Findings

•‘merely repeat[ed] and restate[d] the comments made by trial co­
counsel and appellate counsel in their affidavits.

Yet, the Findings

fail to mentinon the facts asserted by Moiser, which are supported
by the writ record (exhibits)."
30,

Moiser filed a motion to STAY, pursuant to Rule 73.7 of

the Texas Rules of Appellate Procedure, in the TCCA requesting an
opportunity to gather, obtain, and submit missing evidence.

Mosier

requested that the state habeas trial court be instructed to help
Mosier gather the missing evidence.

15

Specifically, Mosier requested,:

•
the=SANE exam report which was admitted at trial
as State's EXHIBIT "6F| & "7'',
•
the electronic recordings of the statements of both
complainants made to the State prosecutor's expert forensic
child interviewer, and
additional affidavit from trial co-counsel responding
to specific calims not addressed in counsel's prior affidavit.
Moiser explained the need for each request and, once again, argued
Martinez/Trevino stressed the need for the full and fair presentation
and consideration of ineffective assistance of counsel at trial claims
raised in an initial-review collateral proceedings.

Moiser even

cited to Evltts v. Lucey that even when a -particular review procedure
is not consitutionally required, when the State chooses to open
review to a conviction^ those procedures must comport with the Due
Process Clause of the 5th and 14th Amendments of the U.S. Constitution.
On May 7

2020 the TCCA denied this motion to STAY.

See, Ex parte

Mosier, No. WR-90,089-01 (Tex.Crim App. May 7, 2020)(available at
http://www.txcourts.gov/cca/).
31.

On September 23, 2020 the TCCA denied, without written

order, Mosier's state habeas writ application,

The TCCA also adopted

the state habeas trial court's Findings of Fact and Conclusions
of Law, .i The TCCA noted that the Findings were made without a hearing.
See, Ex parte Mosier, No. WR-90,089-01 (Tex.Crim.App. Sept. 23,
2020)(available at http://www.txcourts.gov/cca).

REASONS FOR GRANTING THE PETITION
GROUND ONE:

DOES A STATE'S INITIAL-REVIEW POST-CONVICTION
COLLATERAL PROCEEDINGS MEET CONSTITUTIONAL
STANDARDS WHEN THOSE PROCEDURES FAIL TO PROVIDE
A PRISONER THE OPPORTUNITY TO GATHER, PRESENT,
AND CONSIDERATION OF EVIDENCE IN SUPPORT OF AN
INEFFECTIVE ASSISTANCE OF COUNSEL ATTTRIAL
CALIM, FOR WHICH THE INITIAL-REVIEW COLLATERAL
PROCEEDINGS IS THE FIRST MEANINGFUL OPPORTUNITY
TO RAISE AN INEFFECTIVE ASSISTANCE OF COUNSEL
AT TRIAL CLAIM?

The whole point of this Court's decision in Trevino was that
Texas

direct review procedures did not provide prisoners a "meaningful

opportunity" to litigate an ineffective assistance of counsel at
trial claim because there was not an adequate opportunity to investigate
-Hid claim or to develop the record in support of such a claim and 'i'in
Texas 'a writ of habeas corpus

v

issued in state collateral proceedings

ordinarily' is essential to gathering the facts necessary to ...
evaluate ... ineffective-assistance-of-trialecounsel claims.

f M

See,

Trevino v. Thaler, 133 S.Ct. 1911, 1918-1919, 1921 (2013)(quoting
Ex parte Torres

943 S.W.2d 469, 475 (Tex.Crim.App.l997)(en banc)

(brakets omitted)),

Due to Texas' direct review procedures not

afgfording, as a systematic matter, meaningful review of a claim
of ineffectiverassistance of counsel at trial ("IACT"), this Court
found an exception to Coleman and allowed a prisoner to overcome
the failure to exhaust and a procedural default for not raising
a substantial claim of IACT during "initial review collateral proceedings."
See, Martinez v. Ryan, 132 S.Ct. 1309, 1315, 1318 (2012).

But,

what about when c\ ^prisoner does follow a State's established procedures
and exhausts aacalim of IACT claim and those procedures did not
provide the prisoner an opportunity to gather facts in support of
that claim, to expand the record with that sought after evidence,
nor did the state habeas court even consider the evidence that was

/ 9-

submitted by the prisoner?
is the same:

The result feared in Trevino and Martinez

the prisoner will have been "deprive[d] ... of any

[meaningful] review of that claim at all" by any court.

See, Trevino,

133 S.Ct. at 1918 (citing Martinez, 132 S.Ct. at 1316).
That is especially true because review by a Federal habeas
court would initially be limited to the state court record.

See,

Cullen v. Pinholster, 131 S.Ct. 1388 (2011).

MOSIER'S REQUESTS FOR RELEVANT EVIDENCE

In this case, Charels Lee Mosier, Sr.

the Petitioner, filed

motions during his initial-review collateral proceedings asking
for the state habeas trial court's help in gathering evidence in
support of his IACT claim,

Fdr instance, Moiser asserted in his

state habeas writ application that trial counsel was ineffective
when he failed to object on constitutional confrontation grounds
to the admittance into evidence of the SANE exam report (with pictures),
as well as a non-examining SANE nurse's testimony as to the results
and findings cbntaihedcin that report and her expert opinion about
Thus, Mosier requested that the entire SANE exam

those findings»

report be made a part of the writ record.

As another example, Mosier

asserted that his trial counsel was ineffectivea to not cross-examine
A 0

S

the complainant s about all their prior inconsistent statements and
asked that those prior inconsistent statements be made a part of
the writ :fecord.

Indeed, Mosier explained how he could not even

completely or sufficently plead that subclaim and explain exactly
what those prior inconsitent
statements were without access to the
A
electronic recording containing the prior inconsilent statements.

10

Nevertheless, the state habeas trial court

ignored all of Mosier's

motions and, based on the incomplete record and without even considering
the exhibits Mosier was able to

submitt, made Findings of Fact

and Conclusions of Law recommending that habeas relief be denied.
Then, the Texas Court of Criminal Appeals ("TCCA") refused
to require the state habeasscourt to even rule on Mosier's motions
and refused Mosier's request ifrah-t the state habeas court be instructed
to provide Mosier an opportunity to gather, and expand the record
with, the requested evidence in support of the IACT

claim.

To make matters worse, Mosier's trial counsel had passed away
during Mosier's direct review proceedings and prior to initial review
collateral proceedings.

Thus, Mosier was already greatly hendered

in overcomaing the strong presumption that his trial counsel "rendered
adequate assistance and made all signficant decisions in the exercise
of reasonable professional judgment."

See, Burt v. Titlow, 134 S.Ct. 10,

17 (2013)("it should go without saying that the absence of evidence
cannot overcome the 'strong presumption that counsel's conduct [fell]
within the wide range of reasonable professional assistance.'")(quotes
and cite omitted)).
Yet, as refelected by the state habeas trial court's Findings,
"[t]he choosen defense strategy ..: was to bring out the inconsistencies
in statements of the children" and trial cousel likely failed to
object to admittance of the SANE exam report, ;as well as the testimony
about that report and expert opinion based on that report, because
he misunderstood the reach of Crawford and its progeny.

See, APPENDIX

" - Findings #23. ("Wilson believes that Mr, Alley did not object
to the admission of the SANE exam testimony because he concluded
o
it was not a vilation
of the Confrontation Clause.") and #34.
A

GATHERING AND SUBMITTING EVIDENCE NECESSARY PART OF PROCEEDINGS

This Court has had occassion to say that one of the "attributes
of any constitutionally adequate habeas corpus proceeding" is the
habeas court's "authority to admit and consider relevant exculpatory
evidence that was not introduced during the earlire proceeding."
See, Boumediene v. Bush, 553 U.S. 723, 779, 786 (2008).
the words of former Justice.-Brennan, to be an

Or, in

adequate corrective

process state collateral review proceedings "should provide for
full fact hearings to resolve disputed facts, and for compilation
of a record...."

See, Case v, Nebraska, 381 U.S. 336, 347 (1965)

(BRENNAN, J. , concurring)..

And, it is clearly established Federal

law, for at least a state's post-conivction pre-execution sanity
proceedings, that a basic requirment of due process and an opportunity
to be heard is the "opportunity to submit evidence and^argument..."
See, Panetti v. Quaterman, 127 S.Ct. 2842, 2856 (2007)(citing
Ford v. Wainwright, 477 U.S. 399, 427 (1986)(POWELL, J., concurring)
(quote omitted)).

Not to mention that, until the AEDPA, 28 U.S.C.

§ 2254(d) used to eplictly require "a full and fair hearing" in
state court as a prequiste to a Federal habeas court's deference
to state court fact fin^i ngs.
Then, while this Court has recognized that a constitutionally
sufficent investigation, or gathering of evidence, and the abnilty
to expand the record with that evidence are vital to a meaningful
opportunity to litigate an IACT clalim, this Court also recognized
that,:
"While confined to prison, the prisoner is in no
position to develop the evidentiary basis for a claim
of ineffective assistance, which often turns on evidence
outside the trial record."

3S>

See, Martinez, 132 S.Ct. at 1317.

Yet, when a prisoner chooses

to follow the state's established procedure and properly exhaust
a claim of IACT during initidl-review collateral proceedings, review
by the Federal habeas courts will be limited to the state court
record ahd the evidence the prisoner was able to gather and expand
the record with in state court.

See, Pinholster, 131 S.Ct. at ______

Meaning, if the state courts did not provide the prisoner with
meaningful proceudres to gather and submit evidence for the state's
initial-review collateral court's consideration of an IACT claim,
there is a real danger that no court will ever perform any meaningful
review of such a claim.

MORE LIMITED QUESTION THAN PRIOR CERTIORARIS GRANTED
Although in present times it is waning, it remains true that,:
"Because the scope of the state's obligation to
provide collateral review is shrouded in so much uncertainty,
... this Court rarely grafo.frs review at this stage of the
litigation evehnwhen the application for state collateral
relief is supported by arguably meritorious federal!
constitutional claims."
See, Kyles v, Whitley , 498 U.S. 931, 932 (1990)(STEVENS, J. , concurring
in the deniaial of application for stay).

Nevertheless, at least
o

twice this Court has already granted certirari to review what.:the
constitutional standards are for an adequate corrective process
for statercollateral review.

See, Case,v381 U.S. afo______ ,

Woods v. Nierstheimer, 328 U.S. 211, 217 (1946).

Passage of the.-

AEDPA which barrs relitigation of Federal Constitutional calims
priorly litigated in the state courts^and requiring that very exhaustion
of the claims in state courts^unless the prisoner meets a standard
that is difficuly to meet, because it was meant to be difficult
to

3.1

to meet, Harrington v. Richter, 526 U.S. 86, 102-103 (2011), onlyy
heightens the need for this Court to grant certorari to address
just what procedural due process prisoners are due during initial
review collateral proceedings in state courts.

That is even more

so, when as mentioned, AEDPA limits a Federal habeas court's review
to the state court record. See,,^ Pinholster, 131 S.Ct. at _____ .
Most importantly, this Court has implictly, if not explictly, recognized
how vital it is that a prisoner have a meaningful opportunity to
litigate an IACT claim during initial-review collateral proceedings.
See, Trevino, 133 S.Ct. at 1921.
While cases like Case and Woods embraced the broad question
of constitutionally adequate corrective processes for State collateral
review, herein the question is limited to constitutionally adequate
corretive processes for raising IACT claims during initial-review
collateral proceedings (that is, when the collateral proceedings
are the first opportunity to raise such a claim in any: meaningful
manner).
Moreover, the concern is not whether the Constitution requires
States to provide a post-conivction remedy generally,

Rather, "[ejven

if ^ State need never provide a postconviction means of challenging
the constitutionality^ of a conviction or sentence, if it chooses
to do so, the Due Process Clause might require that the choosen
means be full and fair."

See, Randy Hertz and James S. Liberman,

Federal Habeas Corpus Practice and Procedure, 2019 Edition § 7.1[b]
(p.- 403) (Matthew Bender) (citing SWartout v. Cooke, 562 U,S. 216,
220 (2011), District Attorney's Office for the Third Judicial District v.
Osborne, 557 U.S. 52, 67
605, 6100(2005), Evitts v.
2.

69 (2009), Halbert v> Michigan, 545 U.S.
Lucey, 469 U.S. 387, 393 (1985))J

Much of the reasoning of this petition comes from Professors H&rtz and
Liberman.
&

ev>

3s.

Then, just like in Martinez/Trevino, this Court in Coleman recognized
that this Constitutional principle underlying the holding in Evitts
-- meaningful direct appellate review proceedings -- might apply
to state postconvicion procedures whenever it is the case that "state
collateral review is the first place a prisoner can present a
challenge to his conviction" and thus, whenever, "a state collateral
proceeding may be considered" the prisoner's

It f

one and only appeal.

f H

See, Coleman# v. Thompson, 501 U.S. 722, 755-756 (1991)(cited omitted).
Indeed, this Court has granted prisoners relief in similar circumstances
when state collateral proceedings was the first opportunity to raise
the Constitutional violation.

See i.e., Montgomery v, Louisiana,

136 S.Ct. 718, 729 (2016), Johnson v, Mississippi, 486 U.S. 578
(1988), Yates v. Aiken, 484 U.S. 211 (1988), For4v. Wainwright,
477 U.S. 399 (1986).

NO OTHER FEDERAL REMEDY

Also of import is that a § 2254 habeas petition does not provide
ap avenue for the Federal courts to resolve the constitutionality
and adequancy of state collateral review proceedings. See,i.e.,
Valle v. Florida, 654 F.3d 1266, 1267-1268 (11th Cir, 2011), Word y.
Lord, 648 F.3d 129, 131-132 (2nd Cir.* 2011)

Morris v, Cain,

186 F.3d 581, 585 n.66(5th Cir. 1999), Gibson v„ Jackson, 578 F.2d
1045, 1046-1047 (5th Cir. ,1978).

Nor would a constitutionaly deficient

state colateral procedure overcome the AEDPA's bar to relitigation
of Federal constitutional claims.

See, Sully v* Ayers, 725 F.3d 1057,

1067 n.4 (9th Cir. 2013), Ballinger v,. Prelesnike, 709 F.3d 558,
562 (6th Cir, 2015), Black v. Workman, 682 F,3d 880,

(10th Cir.

2012), after remand, 335 Fed.Appx.335 (10th Cir. 2012), Atkins v.

93

Clarke, 642 F.3d 47, 49 (1st Cir. 2011).
review in this Court

All meaning that certiorari

directly: from' .state post-conviction collateral

proceedings, is the only opportunity for Federal review of the
constitutionality and adequacy of those state initial-review collateral
procedures.

TEXAS' P0STCONVICTION RELIEF PROCEDURES

Texasg "exclusive" felony post-conviction collateral relief
procedure is governed by Article 11.07 of the Texas Code of Criminal
Procedure.
trial court

See, Tex. Code Crim. Proc. , art. 11.07 § 5.1' The convicting
or the state habeas trial court, is tasked with the

initial gathering of facts and fact finding; but, only the TCCA
is the ultimate decision maker.

See i.e., Ex parte Adams, 768 S.W.2d

281, 288 (Tex.Crim,App.1989); See also, Moore v, Texas, 137 S.Ct. 1039,
1044 (2017), In Re Cathey, No. 16-20312 at
May 11, 2012).

n.19 (5th Cir.

After the attorney representing the State -- usuaully

the same prosecuting attorney that obtained the conviction (the
District Attorney) -- has had an opportunity to file an Answer,
the habeas statute requires that,:
"... it shall be the duty of the convicting court
to decide whether there are controverted, previously
unresolved facts material to the legality of the applicant's
confinement."
See, Tex. Code Crim. Proc.

art. 11.07 § 3(c).

When the convicting

trial court does so find, that court "shall" resolve the designated
issues using "affidavits, depositions, interrogatories, additional
forensic testing ,and hearings, as well.as using personal recollection."
Id. at § 3(d).

The, the convicting trial court transmits that court's
Findings of Fact and Conclusions of Law to the TCCA. Id. at § 3(d)
(findings), § 5 ("conclusions*).

av

With, or without, Findings of Fact from the convicting trial
court , the TCCA first reviews whether the habeas writ application
alleges "sufficient specific facts that, if proven to be true, might
entitle the applicant toprelief."
633, 640 (Tex.Crim.App.2011).

See, Ex parte Medina, 361 S.W.3d

Upon such a favorable finding, the

TCCA sometimes remands cases back to fcthe convicting'' trial court
for additional:;.fact gathering and fact finding.

See i.e., Ex parte

Dawson, 509 S.W.3d 294 (Tex.Crim.App.2016)(describing processing
of habeas writ applications in the TCCA)

Ex parte Harleston,

431 S*W.3d 67/ 70 (Tex.Crim.App.2014), Ex parte Flores, 387 S.W.3d
626, 634-635 (Tex.Crim.App.2012), Ex parte Eaterson, 993 S.W.2d 114,
_____ (Tex. Crirp. App. 1999).

Once ftfhe TCCA determines that sufficent;

ed

facts have been gather® and factual findings made,

the TCCA makes

an independent determination whether the writ record supports the
convicting trial court's Findings and makes the ultimate decision
whether to grant relief.

See i.e., Tex. Code Crim./Proc., art.

11.07 § 5("Upon reviewing the record the [TCCAi] shall enter its
judgment remanding the applicant to custody or ordering his release,
as the law and facts may justify.").
There is no provision in Texas' collateral review laws for
pre-filing discovery or even any discovery after filing.

Texas

law does not even provide for pre-filing appointment of habeas counsel
in non-capital felony convictions.

See i.e., Ex parte Pointer,

492 S.W,3d 318, 320-321 (Tex.Crim.App.2018), Ex parte garcia, 486 S.Ww3d
565 (Tex.Crim.App.2016)(discussing appointment of counsel in habeas
proceedings).

While Article 11.07 mentions "motions filed", there

is no specific procedure for the convicting trial court to consider
and rule on any motions filed by the parties.

See cf., Tex. Code

Crim. Proc., art. 11.07 § 3(d).
Similarly, Rule 73 of the Texas Rules of Appellate Procedure
provides no specific procedure for the convicting trial court to
rule on any

requests made by ft+he parties.

Yet, Rule 73 does mention

several pleadings the parties may file in the convicting trial court,:
1)

separate memorandum of law,

2)

objections or motions,

3)

affidavits or exhibits,

4)

proposed Findings of Fact and Conclusions of Law.

See ,Tex. R. App. Proc. 73.1(c) & (d), 73.4(b)(2)(and (b)(4).
parties are allowed to ask the TCCA to allow the filing of

The

already

obtained evidence in the convicting trial court after the case has
been forwarded toi the TCCA. I®, at 73.7.
NOTHING IN TEXAS' COLLATERAL REVIEW PROCEDURES REQUIRES A COURT
TO HELP A PRISONER IN ANYWAY GATHER SPEIFIC EVIDENCE HE OR SHE WISHES
TOU0SE TO (DRAFT)OR) SUPPORT THE CLAIMS RAISED IN A POST-CONVICTION
HABEAS WRIT APPLICATION.

MOISER'S REQUESTS WERE IGNORED

Thug, for instance, fc+he convicting trial court

or state habeas

trial court, was not required to consider or rule on Mosier's motion
for live evidentiary hearing, motion to compell production of the
SANE exam report, or motion to compell the production of the electronic
recording of the complainant's statements.
No. WR-90,089-02 (Tex.Crim.App.

See, Ex parte Molser,
)(available at

http://www.txcourts.gov/cca/), Ex parte Moiser, No. WR-90,089-03
(Tex.CrimAApp.)
(tea/).

)(available at http://www.txcourt.gov/

And, the TCCA summaryly

jss eol

3l fc

Mosier's request, pursuant

Rule 73.7 of the Texas Rules of Appellate Procedure, to present
-frtcA.
additional evidence, with the state^habeas court's help,, to the
state habeas court.

See, Ex parte Moiiser

No. WR-90,089-01 (Tex.

Crim.App. May 7, 2020)(available at http://www.txcourts.gov/cca/).
Meaning, Mosier was unable to gather and submitt evidence critical
to his claim that his trial counsel was ineffective because:
1)

1)

Trial counsel failed to object on constitutional

confrontation grounds to fif"he admission of

the SANE exam

report (with photographs), the nonexaming SANE nurse s
testimony about the results and finding of that report,
and.the non-examining SANE nurse!s expert opinion and
graphic testimony, based on the SANE exam report and
photographs, as to the existence and cause of a tear in
one of the complainant's hymen; yet, the SANE exam report
(with photographs) that was admitted into evidence at
trial was not made a part of the writ record, inspite
of Mosier's multiple requests.
2)

Trial counsel failed to properly cross-examine

the complainants as to their prior inconsistent statements
and to expose those prior inconsistent statements to the
Jury, even though it was trial counsel's express strategy
to do so; yet, all the prior inconsisitent statements
-- electronic recordings of forensic interviews -- were
not made a part of the writ record, inspite of Mosier !s;;
multiple requests and Mosier was not even able to plead
in his habeas writ application speificfc facts as to all
the prior inconsisitent statements (in the »peocrdings).

Moiser's multiple requests argued that the Due Process Clauses
of the 5th and 14 th Amendments to the U.S. Constitution, inclduing
a meaningful and adequate opporunity to be heard, required procedures
for him to gather the requested relevant eveidence and to expand
the record with that evidence.

Mosier stressed that because initial

review collateral proceedings were the first meaningful opprtunity
to ri^se an IACT claim, like a defpendant's one and only appeal,
additional proceduers were required byuthe Constitution than normal
post-conviction proceedings,

There is some1*ting fundamentally wrong

with placing the burden on prisoners to sufficently plead and prove
their claims, inclduing overcoming the strong presumption-iof strategic
excuses, without providing the prisoner some avenue to gather -fcker
Qfland submitt the necessary evidence to meet that burden of
proof.

That is especialy so in Mosier's case were trial counsel

had passed away and the evidence was also necessary to sufficently
draft his claims inuthe habeas writ application.

As is its custom,

the TCCA wholy ignored such arguments and summaryly denied relief
to Mosier.

DUE PROCESS APPLIES

It is well-established that,:
"[w]hen a State opts to act in a field where its
action has significant discretionary elements [jlike
providing appeals, when it does so] it must nonetheless
act in accord with the dictates of the Constitution -and, in particular, act in accord with the Due Process
Clause."
See, Evitts v. Lucey, 469 U.S. 387, 401 (1985), Hicks v. Oklahoma,
447 U.<S. 343, 346 (1979), Welch v. Beto, 355 F.2d 1016, 1020 (5th
Cir. 1966).

This Court has implictly acknowledged that the principles

3.8

underlying the decision in Evitts should apply to initial-review
collateral proceedings, which is the first place a prisoner can
present a splcific challenge to his or her conviction, because/!it
is similar to a prisoner's "one and only appeal."
Thompson, 501'LU.S. 722, 756 (1991).

See, Coleman# v.

Indeed, this Court has

acknowledged that,:
"the question is whether consideration of [the
prisoner's] claim within the framework offthe State's
procedures for postconviction relief offends some principle
of justice so rooted in the traditions and conscience
of our people as to be ranked as fundamental or transgresses
any recognized principle of fundamental fairness in operation.
Federal courts may upset a State postconviction relief
procedure only if they are fundamentaly inadequate to
vindicate the substantive rights provided."
See, Osborne, 129 S.Ct. 2308, 2319 -2320 (citing Medina v. California,
505 USS. 437, 446, 448 (1992)(quotes omitted)).

And, in Ford, Justice

Powell -- who's opinion is clearly established Federal law,-Panetti,
127 S.Ct. at 2856 -- citing to Matthews v. Eldridge, 424 U.S. 319;
(1976), determined that, pursuantio* Due Process,and an opportunity
to be heard, applicable to State collateral review proceedings (in
death penaltyycases), basic fairness demanded the ability of the
court to receive and consider evidence submitted by the prisoner.
See, Ford v, Wainwright, 477 U.S. 399, 424 (1986)(POWELL, J., concurring).
As a forti, the prisoner must have a meaningful opportunity to gather
that evidence.
As this Coffurt has said in relation toodiscovery during Federal
habeas review, " where specific allegations before the court show
reason

o believe that the petitioner may, if the facts are fully

developed, be able to demonstrate that he is confined illegally
and is therefore entitled to relief, it is the duty of the court
to provide the necessary facilities and procedures for an adequate
inquiry."

See, Harris v. Nelson, 394 U.S. 286,

(1969).

-fc

Whether under Medina or Maffiews, the ability of a prisoner
to gather evidence in support of an IACT calim during initial review
collateral proceedings is a fundamental requistie of Due Process
and a meaningful opportunity to be heard necessary to vindicate
one's bedrock right to counsel.
Martinez and Trevino.

This Court as much held this in

In Martinez this Court determined that:

"Claims of ineffective assistance of counsel at trial
often require investigative work and an understanding
of trial strategy.
While confined to prison, the prisoner is in no
postion to develop the evidentiary basis for a claim if
of ineffective assisAQnce, which often turns on evidence
outside the tEialdrecord.
Ineffective-assis^ffince claims often depend on

evidence outside the trial record, Direct appeals,
without evidentiaryihearSings, may not be as effective
as other proceedings for developing the factual basis
for the claim."
See, Martinez

Once again, this was the

132 S.Ct. at 1317-1318.

very reason Texas

direct review proceedings, as a systemic matter,

failed to afford a meaningful opportuntiy for review of a IACT claim.
See, Trevino, 133 S.Ct. at 1918-1919.

The point issthat this Court

has held that,:
"The right involved -- adequate assistance of counsel
at trial -- is similarly and critically important, In
both instances practical considerations, such as the need
for a new lawyer, the need to expand the trial court record,
and the need for sufficient time to develop the claim,
argue strongly for initial considerationjof the claim
during collateral, rather than direct, review."
See, Id. at 1921.

This case simply asks the next question, what

if the state's initial-review collateral procceings do not allow
prisoners adequate corrective procedures to develop* the record
and meet their burden in pleading and overcoming the strong presumption
that counsel was effective?

2>o

CONCLUSION - NO PERFECT VEHICLE

This is not an isolated incident in the breakdown of Texas'
initial review collatarl proceedings.
(S.Ct. - _________

Texas, No.

See i.e., Cody Joseph Morgan v.
)(TCCA No. WR-89,438-01),

Morgenstern v, Texas, No. 17-5892 (S.Ct. - July 11, 2017)(filed),
Reed v. Texas, No. 17-5047 (S.Ct.

Oct. 2, 2017), Crespin v. Texas,

136 S.Ct. 359 (U.S. Oct. 19, 2015)(cert denied); See also, Ex parte
CTi*. CtZien.

->

Empey, 757 S.W.2d 771, 776^(TEAGUE, J., dissenting).

Moreover,

the disinguished scholars Randy Hertz and James Liebman have advocated
for this Court to resolve this type of issue,:
"Various provisions of the [AEDPA] ... limit the
scope of [Federal] habeas review and relief based on an
assumption that state postconviction proceedings afforded
the prisoner a full and fair remedy for violations of
federal law that occurred at the prisoner's criminal trial.
If that assumption is wrong, AEDPA's limitations on habeas
corpus review may effectively deny the prisoner ANY meaningful
state OR federal postconviction remedy.

This state of

affairs makes it crucial that prisoners denied full and
fair review in state postconviction proceedings consider
arguing that point as a separate ground for United States
Supreme Court review on CERTIORARI of the state court
proceedings.

Although the Supreme Court has repeatedly

acknowledged that the question whether inadequate state
postconviction procedures violate the Constitution's Due
Process, Equal Protection, and Suspension Clause is a
substantial issue worthy of the Court's certiorari review

3/

the Court has consistently declined to address the question
[due to vehicle problems]... The real possibility that
AEDPA has removed ... the longstanding federal habeas
corpus backstop for deficient state postcohviction proceedings
both increases the importaance of Supreme Court review
of th[is] question ... and undermines the Supreme Court
previously asserted reason for pretermitting the question.
DOubts about the existence of a federal habeas corpus
or other lower federal court forumlfofglitigating the
constitutionality of state postconviction proceedings
enhance the importance of Supreme Court review on CERTIORARI
following state postconviction proceedings."
See, Randy Hetz and James S. Liebman, Federal Habeas Corpus Pratice
and Procedure

2019 Edition §/7.1[bQ (p. 396-397 n. 47) (Matthew

Bender).
\ C\

The very nature of this question, both decificent state initialreview collateral proceedings and PRO SE litigation, means there?:
will likely never be a perfect case as a vehicle to resolve this
important question.

The question will almost always arise when

there is a summary'.denial by the state courts, meaning there will
open questions about the reason for the denial.

That concern is

lessened in Mosier's case because the problem includes his inability
to sufficiently plead the state habeas writ application.

Moreover,

PRO SE advocacy will never be perfect, but hopefully it has been
sufficient in this case to squarely present the issue and to give
the TCCA an opportunity to address the issue.
asks this Court to GRANT review herein.

3>

Therefore, Mosier

GROUND TWO:

WAS PETITIONER'S TRIAL COUNSEL AND CO-COUNSEL
INEFFECTIVE DURING EITHER THE GUILT/INNOCENCE
PHASE OR SENTENCING PHASE OF THE TRIAL, PURSUANT
TO STRICKLAND v. WASHINGTON, 466 U.S. 668 (1984):
AND, IF NOT, DOES STRICKLAND NEED TO BE MODIFIED
TO ADDRESS STITUATIONS WHEN TRIAL COUNSEL IS
UNAVILABE AS A WITNESS?TO

In all likelihood Strickland v. Washington, 466 U.S. 668 (1984)
applies directly to Charels Lee Mosier^r<the

Petitioner's, claim

that hs trial counsel and co-counsel were ineffective during both
the guilt/innocence pahse and snettencing phase of

trial.

Yet,

there may be an opportunity for this Court to address whether the
strong presumption of counsel having rendered "adequate assistance
and made all significant decisions in the exercise of reasonable
professional judgment", which can not be overcome based on a silent
record, Burt v* Titlow , 134 S.Ct. 10, 17 (2013)(quoting Strickland,
466 U.S. at 690), needs to be somewhat modified for cases when trial
counsel is unavailable as a witness.

More likely, lower courts

simply need some guidance from this Court on "examinf.ing] counsel's
trial tatro&s and Strategy as revealed by the [trial] record because
the record best reflects 'counsel's perspective at the time.

I fl

See, Fretwell v. Norris, 133 F.3d 621, 624 (8th Cir. 1988)(cite
omitted).

In any event, because Mosier' s coOcounsel was available

to testify -- via affidavit -- and based on the trial record, for
the most part, trial counsel's strategic, or tatical, decisions
and reasons for those decisions are discernable from the post-conviction
writ record.

INTERTWINED WITH GROUND ONE

Of course Moiser believes that the TCCA (and the state habeas

2.3

trial court) incorrectly determined that hisstrial counsel and co­
counsel were not ineffective.

But, it really just involves a straight

forward application of Strickland.

Neverhsteless , whether Mosier

dari'satisfy the Strickland standards is intertwined with GROUND ONE
herein.

If for no other reason thann that denteral to GROUND ONE

is that Thxas' initial-review collateral proceedings did not provide
constitutionally adequate procedures necessary to prove his claim.
Moreover, as part of the TCCA's ereview of TACT claims during initialreview collateral proceedings is to presume G'the thruath of the
£
claim and dtermine whether, if true, lithe allegations would legally
t*

merit relief.

See i.e., Ex parte Medina, 361 S.W.3d 633, 640 (Tex.

Crim.App.2011).
So, it is at leastctheoretically possible

that the reason

the TCCA did not remand Mosier's case back to the state habeas trial
court for additional fact gathering amd fact finding was a determination
that Mosier could not satisfy Strickland even with the requested
additional evidence. Then one would also have to guess at which
It
priong of Strickland, deficient performance or prejudice that the
TCCA felt Mosier could not meet.
Yet, in reality it is doubtful that the TCCA simply assumed
the thruth of Mosier's factual assertions because there were Findings
of Fact issued by the state habeas trial court.

Thus, it is much

more likely that the TCCA simply reviewed those Findings of Fact
and determined that they were supported by the writ record.

See,

Ex parte Dawson, 509 S.W.3d 294 (Tex.Crim.App.2016), Ex parte Reedy,
282 S.W.3d 492,

(Tex.Crim.App.2009).

That, in®

and of itself,

is problimaticfi, with losts of open questions as to theereasoning
for the TCCA's denial of relief; because, the state habeas trial
court made very broa^i findings of fact and conclusions of law.

Did the TCCA simply determine that Moiser could not establish
Strickland prejudice?

Then, for which subclaims of deficient performance

didtthe TCCA review for the cumlative effect&fct on the outcome of
Mosier's trial?

Yet, at least for the concerns related to the SANE

exam report and accompanying photographs -- how could the TCCA determine
prejudice without the actual full SANE exam report and photographs
being made a part of the writ record?

Likewise, without knowing^

exactly what other inconsistent statements the children made during
the recorded forensic interviews -- how could the TCCA determine
whetehr there was a reasonable probability of a different outcome
of Mosier's trial?

STRICKLAND PREJUDICE

At least the TCCA did have the trial record and that was only
because Moiser attached a copy as an exhibit to his writ application.
Arid, Mosier did submit several other exhibits

like the State's

Disclousures which demonstrated some of the children's inconsistent
statements.

As Mosier asserted throughout his writ application,

that evidecne alone demonstrated the ^reasonable probility of a
different outcome had trial counsel riot been ineffective.
Primarily, as the parties all agreed, the credibilty of the
children was vital to the State prosecutors obtaining a conviction.
6 RR 90-91, 93-96

105-106, 108-118.

Trial counsel's deficient

conduct likewise centered around the children's credibilty.

For

instance, without the SANE exam report evidence there would have
been no physical evidence to support the children's testimony.
See i.e., MriCormick v. Parker, 821 F.3d 1240, 1248-1249 (10th Cir.
2016).

And, pursuant to Texas Penal Code § 21.02 and the allegations

2>S

in the indictment

the State prosecutor needed the Jury to believe

both children in order to prove two different incidents, over more
than a 30 day period (especially when there was only one allegation
concerning Alex).

Importantly, without a doubt, had trial counsel

exposed to the Jury all the actual inconsistent statements of the
children, then the Jury would have had a much more difficult time
believing the children's testimony.

Not to mention, that as the

State appellate court e*mphsised on direct review, the defensive

theowi: pursued by trial counsel was uncredibile itself and ,had
the Jury been presented the revised defensive theoyy, there is a
reasonable probabilty that the result of the trial would have been
different.

Finally, had the Jury known that Jr. abused Amy (and

admitted to do doing so), that couldl have explained to the Jury
why the young Amy could fabricate the sexual acts she testified
about.
Similarly, a^ sentencing, in relation to the alleged extraneous
offense evidence against Mosier.;'s sister, the State appellate court
recognized th®at that allegation was "more heinous" and that the
state trial court had determined that Mosier's sister was "highy
credible."

APPENDIX "C" - COA Op., P- 21, 28.

Not to mention

that Mosier^s sister testifed that the alleged "abuse
[her]' and 'affect[ed] every aspect of her life.

I II

stuck with

Id. at p. 9.

Those are similar circumstances as when the TCCA has found Strickland
prejudice due to inadmissible extraneous offense evidence.
Ex parte ROgers, 369 @.W.3d 858, 860-861 (Tex.Crim.APp.2012)

See,
Thus,

it was particularly prejudical when the State prosecutor asked the
Jury to judge and puhish Mosier for the alleged extraaneous offense
against his sisterrby quantifiying, or putting a number, to her
losses.

8 RR 33-34.

Additionally, it appears that the TCCA may

36

VA^

6-

have had a difficult time determine prejudice for sentencing proceedings
and -whCMTCr this Court's declaration that "any amount of jail time"
tjas Sixth Amendment signficance applies in prectice.
Ex p&rte Miller

See i.e.,

548 S.W.3d 497, 501 (Tex.Crim.App.2018).

DEETCIENT PERFORMANCE
her
That leave the question of whetehr trial counsel s conduct
was deficient performance. As for the failure to object to the State
prosecutor' s cJLaosing arguments at sentencing, this Court has determined
that "intorduction of relevant evidence of particular [extraneous]
misconduct in a case is not the same thing as prosecution for that
conduct."

See, U.S. v. Felix, 112 S.Ct. 1377, 1382 (1992).

Thus,

it would not necessarily violateuDouble Jeopardy for Moaiser to
be prosecuted by tjhe State of Arkansas for. the alleged extraneous
offense against Mosier's sister.

However, if Mosier was not being

"prosecuted" for the alleged extranoues offense, it was imporper
for the State prosecutor tffo ask the Jury to judge and punish Moiser
for that allegation by adding aanumber of years to his sentence.
See i.e., Tucker v. State, 456 S.W33d 194, 221-222 (Tex.App. - San
Antonio 2014)(ALVEREZ, J., dissenting)(citing amoung other authorities
Klueppel v. State

505 S.W.2d 572, 574 (Tex.Crim.App.J974)).

The

state habeas court soley considered whether the arguments were a
summation of the evidence, not whether they violated Donnelly v.
DeChistoforo, 416 U.S. 637 (1974) or some other provision of the
U.S. Constitution.

Mo-ai-e&r- asserted that the argu«flrt*i violated

his Constitutional rightrto be tried by a Jury in Arkansas for the
State prosecutor to ask a Texas Jury to judge and punish Mosier
for the extranouesoffense against his sister. See, U.S. Const.

3^

Art. Ill, Sec. 2 and 6th Amend.; See also i.e., Rogers y. Lynaugh,
848 F.2d 606, 611 (5th Cir. 1988).
As for the SANE exam report, as well as the non-examiining
SANE nurse's testimony about that report's findings and results
and her expert opinion basedonbhat report, this Court addressed that
issue in Williams v. Illinois, 123 S.Ct. 2221 (2012).

First, unlike

Williams, the SANE SxAm report, with photgraphs, was admitted into
evidence, for the truth of the matter asserted, at Mosier's trial.
However ,because the examining SANE nurese was not avaailable to
testify (and there was noiprior opportunity to cross-examin her))
the SANE exam report was not addrhdissible under the buisness records
expection and trial counsel

should have objected under the Confrontation

Clause to the report^s admittance iinto evidence.

See i.e., Bullcoming v.

New Mexico, 131 S.Ct. 2705((2011), Paredes v. State, 462 S.W.3d
510, 517 (Tex.Crim.App.2015), Russeau v. State, 171 S.W.3d 871,
880-881 (Tex.Crim.2005); See also, U.S. v. Cameron,v699 F.3d 621
(1st Cir. 2012).

c-

Thus, the conern voiced by Justice S0T0MAY0R. happened
A

in Mosier's case, the non-examining SANE nurse testified as "an
expert witness to discuss others' testimonial statements" when those
testimonial statements were themselves inadmissible at trial.
Bullcoming ,131 S.Ct. at 2722 (S0T0MAY0R, J., concurring).

See,

Williams

was unsuccessful on such a claim because the trial was before the
court.

Yet, even the plurity

opinion in Williams agreed with the

dissent frfhat had the same thing in Williams' trial happen at a
jury trial, "[ai|bsent an evaluation of the risk of jury confusion
and careful jury instructions, the testimony could not fchave gone
to the jury."

See, Williams, 132 S.Ct. 2236.

Thus, a reading of

Williams as a whole, should have led any reasonably profession*(l

3>8

foA

attorney to object to the non-examining SANE nurse's expert opinaim
testimony based on the inadmissible SANE exam report.

While the

State habeas court ackowleged that the reason trial counsel did
not object was because of his understanding of the Confrontation
Clause, that court also appeared to focu$on the idea that the non­
examining SANE nurse based her expert opinion on the photographs
that were a part of the SANE exam report.
# 25, 29

APPENDIX "g" - Finding

& 30; See cf., Carter v. Douma, 796 F.3d 726

736-736

(7th Cir. ,2015)(misunderstanding of law not stratgic excuse),

Nevertheless,

the plurilty in Williams acknowledged, and Mosier argued below,
that the non-examining SANE nurse

aws not competent to testify

to the chain of custody of the [photographs of]%the victim [, which]
was a point that any trial judge or attorney would immediately understand."
See,aWilliams, 132 S.Ct. at 2237.
Meaning, when the SANE exam report (with the photographs) was
not admissible at trial as a business record,(especially when it

hd

was perpared for litiation), then cabin of custody testimony was
necessary for the photographs to be admissible.

The non-examining

SANE nurse could not provide that chain of custody testimeony -and any reasonable professional attorney would have known that.
Therefore, the non-examining SANE nurse's expert testimony that
was based on the inadmissible SANE exam report (and photographs)
violated the Confrontation Clause and trial counsel should have
4K«vh
objected. Really, the entire Court in Williams saw -bah-t as a constitutional
violatiohnduring a jury trial.
Finally, trial counsel did not do what he thought he did and
did not follow through on his choosen (and available) defense strtegy.
Trail counsel thoughfhe had and wanted to expose all the children's
u
prior inconsistent statements and -the Jr. had abised Amy; but, the

4

trial record reveals that counsel did not do either of those.

(®f

course, that is the problem with the state habeas court only considering
the affidavit of co-counsel and not the^exhibits
sumitted by Mosier.)

trial record

Any reasonabiliy competent attorney would

have folowed through on his choosen strategy, especially when there
was evidence available and admissible to support that strategy.
To not do so, especially considering the resulting prejudice, was
deficient performance.

IMPORTANT QUESTIONS INCLUDED

Within this straight forward Strickland claim, there are several
Those include the

important questions this Court could address.

application of the "any amount of jail time" stanadard to sentencing
proceedings where there is a large amount of discretion of the sentencer
(ex. no gentecing guidelines).

Also, the reach of the allowance

a

of extraneous offenses to be brought up during sentencing and just
how the Jury can consider those extraneous offenses -- can the Jury
be asked to increases the sentence by a number of years in order
to judge and punish the defendant for that extraneous offense?
And, of course, hbw the'.situation in Williams applies to Jury trials.
.

$

All within the lenses of^ law that any reasonably professional attorney
should already be aware of*

CONCLUSION

The petition for writ of certiorari should be granted,
tfjully Submitted,

HO

Charles Lee Mosier, Sr.

INDEX TO APPENDICES
APPENDIX A - Texas Court of Criminal Agfe&sUbs5 SUMMARY DENIAL
No. WR-90,089-01 (09-23-2020)
APPENDIX B - 432nd District Court of Tarrant County, Texas's
Finding of Fact and Conclusions of Law
No. C-432-W011426-1397476-A
APPENDIX C - 2nd District Court of Appeals of Texas Memorandum
Opinion on direct appeal
No. 02-16-00159-CR
APPENDIX D - Texas Court of Criminal Appeals' SUMMARY DENIAL
of Petition for Writ of Mandamus
No. WR-90,-089-02
APPENDIX E - Texas Copnttof Criminal Appeals' SUMMARY DENIAL
of Petition for Writ offMandamus
No. WR-90,089-03
APPENDIX F

EXTENDED STATUTORY PROVISIONS
Art. 11.07 of the Texas Code of Criminal Procedure
Rule 73, Texas Rules offAppellate Procedure

APPENDIX g - EXHIBITS from State Habeas Writ Application
State's Disclosure #2 & #3

